 QUALITY CONTROL REVIEW OF COOPERS & LYBRAND L.L.P
      AND THE DEFENSE CONTRACT AUDIT AGENCY
               THE RAND CORPORATION
        FISCAL YEAR ENDED SEPTEMBER 24,1995



Report Number PO 98-6-006                February 17, 1998



             Office of the Inspector General
                 Department of Defense
 QUALITY CONTROL REVIEW OF COOPERS & LYBRAND L.L.P
      AND THE DEFENSE CONTRACT AUDIT AGENCY
               THE RAND CORPORATION
        FISCAL YEAR ENDED SEPTEMBER 24,1995



Report Number PO 98-6-006                February 17, 1998



             Office of the Inspector General
                 Department of Defense
Additional Copies

To obtain additional copies of this evaluation report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932.

Suggestions for Future Audits and Evaluations

To suggest ideas for or to request future audits or evaluations, contact the Planning and
Coordination Branch of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932.                Ideas and requests
can also be mailed to:

                      OAIG-AUD (ATTN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL; or
by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The
identity of each writer and caller is fully protected.




ACRONYM

       DCAA Defense Contract Audit Agency
       GAO General Accounting Office
       GAS Government Auditing Standards
       GAAS Generally Accepted Auditing Standards
       OMB Office of Management and Budget
                                                                         February 17, 1998

Chairman, Non-Profit Industry Group
Coopers & Lybrand L.L.P.
1251 Avenue of the Americas
New York, NY 10020-1157

Director, Defense Contract Audit Agency
8725 John J. Kingman Road, Suite 2135
Fort Belvoir, VA 22060-6219


SUBJECT:    Quality Control Review of Coopers & Lybrand L.L.P.
              and the Defense Contract Audit Agency
            The RAND Corporation
            Fiscal Year Ended September 24, 1995
            Report No. PO98-6-006


Introduction
      We are providing this report for your information and use. The Los Angeles,
      California, office of Coopers & Lybrand L.L.P. (Coopers), in coordination with the
      West Covina, California, office of the Defense Contract Audit Agency (DCAA),
      performed the single audit for the RAND Corporation (RAND), Santa Monica,
      California, a nonprofit organization. The audit is required by Office of Management
      and Budget (OMB) Circular A-133, “Audits of Institutions of Higher Education and
      Other Nonprofit Institutions.” For the fiscal year ended September 24, 1995, Coopers
      reported total Federal expenditures of $94,311,394, representing $65,371,453 for the
      Department of Defense (D OD) and $28,939,941 for other Federal agencies.

       The Coopers audit report is dated November 3, 1995. The auditors issued an
       unqualified opinion on the financial statements, Schedule of Federal Awards, and
       individual reports on internal controls, and compliance requirements. The DCAA
       issued its incurred cost audit report on July 24, 1997. The DCAA questioned $355,070
       of overhead costs related to Federal research and development programs. The DCAA
       issued a qualified opinion for FY 1995 incurred costs, because RAND corporation had
       not provided documentation supporting its compliance with the memorandum of
       agreement on salary limitation.
     Coopers issued positive and negative assurance statements on compliance with general
     requirements. Positive assurance states that, with respect to the items tested, the results
     of the auditors’ procedures disclosed no material instances of noncompliance. Negative
     assurance states that, with respect to the items not tested, nothing came to the auditors’
     attention that caused them to believe that BAND had not complied in all material
     respects.

     Coopers also obtained an understanding of the internal controls related to the financial
     statements and Federal awards. The audit report describes the auditors’ scope of work
     in obtaining that understanding and in assessing control risk. The report on internal
     controls further describes the significant internal controls and control structure,
     including the controls that provide reasonable assurance that Federal awards are being
     managed in accordance with applicable laws and regulations.


Quality Control Review Results

     The coordinated audit performed by Coopers and DCAA, meets the applicable
     guidance and regulatory requirements in the OMB Circular A-133 and its related
     Compliance Supplement, which incorporate the Government Auditing Standards (GAS)
     and generally accepted auditing standards (GAAS).


Quality Control Review Objective

     The objective of a quality control review is to ensure that the audit was conducted in
     accordance with applicable standards and meets the auditing requirements of OMB
     Circular A- 133. As the Federal oversight agency for RAND, we conducted a quality
     control review of the Coopers and DCAA audit working papers. We focused our
     review on the following qualitative aspects of the audit: due professional care,
     planning, supervision, independence, quality control, internal controls, substantive
     testing, general and specific compliance testing, and the Schedule of Federal Awards.

     We reviewed the most recent peer review letter for Coopers, issued by Ernst & Young
     L.L.P., on September 23, 1994. The peer review found that Coopers met the
     objectives of the quality control review standards established by the American Institute
     of Certified Public Accountants and that Coopers complied with the standards during
     the fiscal year ended March 3 1, 1994. However, the peer review letter contained
     recommendations for improvements in the area of supervision.
Scope and Methodology

     We used the 1991 edition of the Uniform Quality Control Guide for Single Audits (the
     Guide) that was approved by the President’s Council on Integrity and Efficiency as
     guidance for performing the quality control review procedures. The Guide is organized
     by the general and field work audit standards and the required elements of a single
     audit. The Guide is further divided into the substantive audit work performed during
     the audit of the financial statements and the specific program compliance testing for
     major programs. In addition, we supplemented the Guide to include additional review
     of transaction testing. Our review was conducted from September 29 through October
     3, 1997.

     We limited the scope of our quality control review to the audit working papers covering
     areas related to the financial statements and the research and development program.
     The research and development program expenditures totaled about $94 million and
     accounted for 100 percent of total Federal award expenditures at RAND.


Results of Prior Quality Control Reviews

     We identified minor quality control review findings and made recommendations at 3 of
     the 11 Coopers locations we visited from January 1, 1995, through September 15,
     1997. The affected offices were notified, and no further action is necessary.


Background

     The Inspector General Act of 1978, Public Law 95-452, prescribes the duties and
     responsibilities of that office. In implementing those responsibilities, the Inspector
     General is required to “take appropriate steps to assure that any work performed by
     non-Federal auditors complies with the standards established by the Comptroller
     General. ”

     The Single Audit Act of 1984 (Public Law 98-502) was intended to improve the
     financial management of state and local governments whose total annual expenditures
     are $100,000 or more with respect to Federal financial assistance programs; establish
     uniform requirements for audits of Federal financial assistance; promote efficient and
     effective use of audit resources; and ensure that Federal departments and agencies rely
     on and use the audit work done under the Act, to the maximum extent practicable.

     The Single Audit Act Amendments of 1996, based on 12 years of experience under the
     1984 Act, are intended to strengthen the usefulness of single audits by increasing the
     audit threshold from $100,000 to $300,000 in Federal financial assistance before an
     audit is required under the Act; by selecting programs to be audited on the basis of risk
     assessment rather than the amount of funds involved; and by improving the contents


                                              3
     and timeliness of single audits. The Amendments also bring nonprofit organizations,
     previously covered by similar requirements in the OMB Circular A-133, under the
     Single Audit Act.

      The OMB Circular A-133 establishes the Federal audit and reporting requirements for
      nonprofit and educational institutions whose Federal awards are or exceed $100,000.
      The Circular provides that an audit made in accordance with the Circular shall be in
      lieu of any financial audit required under individual Federal awards. An agency must
      rely on the audit to the extent that it provides the information and assurances that an
      agency needs to perform its overall responsibilities. The coordinated audit approach
      provides for the independent public accountant, Federal auditor, and other non-Federal
      auditors to consider each other’s work in determining the nature, timing, and extent of
      their respective audit procedures. The Circular also requires that the cognizant agency
      obtain or conduct quality control reviews of selected audits made by non-Federal
      auditors and provide the results, when appropriate, to other interested organizations.
      The revised Circular was issued on June 24, 1997, to incorporate the changes in the
      Single Audit Act Amendments of 1996. Its provisions apply to audits of fiscal years
      beginning after June 30, 1996.


Discussion of Results

      During our quality control review, we reviewed and took no exception to the working
      papers supporting the following reports.

      Report of Independent Accountants. The auditor is required to obtain reasonable
      assurance about whether the financial statements are free of material misstatement. We
      reviewed the audit program and the testing of evidential matter to determine whether
      testing was sufficient, based on assessment of control risk, to warrant the conclusion
      reached and whether the working papers supported the conclusion.

      Report of Independent Accountants on Internal Control Structure Based on an
      Audit of Financial Statements Performed in Accordance with Government
      Auditing Standards. The auditor is required to obtain an understanding of the internal
      control structure that is sufficient to plan the audit and to assess control risk for the
      assertions embodied in the financial statements. We reviewed the audit program for the
      appropriate procedures, the working paper documentation, and the substantive testing
      performed.

      Report of Independent Accountants on Compliance with Laws, Regulations,
      Contracts, and Grants Based on an Audit of Financial Statements Performed in
      Accordance with Government Auditing Standards. The auditor is required to
      determine whether the recipient has complied with laws and regulations that may have a
      direct and material effect on the determination of financial statement amounts. We


                                              4
reviewed the audit program for the appropriate procedures, the working paper
documentation, its support, and the compliance tests performed.

Report of Independent Accountants on Schedule of Federal Awards. The auditor is
required to subject the schedule to the auditing procedures applicable to the audit of the
financial statements and to ensure that the amounts are fairly stated in relation to the
basic financial statements. Our review was included in the steps of evaluation of the
audit working papers related to the Report of Independent Accountants.

Report of Independent Accountants on Internal Control Structure Used in
Administering Federal Awards. The auditor is required to obtain an understanding of
the internal control structure to assess control risk to determine whether the auditor
intends to place reliance on the internal control structure. The auditor must perform
tests of controls to evaluate the effectiveness of the design and operation of the policies
and procedures in preventing or detecting material noncompliance, to review the system
for monitoring subrecipients and obtaining and acting on subrecipient audit reports, and
to determine whether controls are effective to ensure that direct and indirect costs are
calculated and billed in accordance with the general requirements in the Compliance
Supplement. We reviewed the audit program for the appropriate procedures, the
working paper documentation, and the test of controls performed.

Report of Independent Accountants on Compliance With General Requirements.
The auditor is required to determine whether the recipient has complied with laws and
regulations that may have a direct and material effect on any of its major Federal
programs. General requirements are those that could have a material effect on the
recipient’s financial statements including those prepared for Federal programs. The
auditors’ procedures were limited to those prescribed in the OMB Circular A-133
Compliance Supplement. We reviewed the audit program for the appropriate
procedures, compared the audit program steps to those in the Compliance Supplement
to make sure that all areas were audited, reviewed the working paper documentation
and its support, reviewed the compliance tests performed, and reevaluated selected
compliance items.

Report of Independent Accountants on Compliance With Specific Requirements
Applicable to Major Programs. The auditor is required to determine whether the
recipient has complied with laws and regulations that may have a direct and material
effect on its major Federal programs, including Types of Services Allowed or
Unallowed; Eligibility; Matching, Level of Effort, and/or Earmarking Requirements;
Special Reporting Requirements; and Special Tests and Provisions. We reviewed the
audit program for the appropriate procedures, checked the audit program steps to those
in the Compliance Supplement to make sure all areas were audited, reviewed the
working paper documentation and its support, reviewed the compliance tests
performed, and reevaluated selected compliance items.
      Schedule of Findings and Questioned Costs. The auditor is not required to but may
      report immaterial findings in the audit report or report them to the recipient in a
      separate written communication. The recipient is responsible for forwarding the
      findings to the Federal grantor agencies. We traced the findings in the working papers
      to the audit report to make sure that the report includes all findings identified in the
      working papers and that the findings are properly supported. We noted one repeat
      audit finding that had not been resolved from the prior year’s audit. A complete list of
      all audit findings is in Enclosure 1.


Comments

      Because this report contains no findings or recommendations, written comments are not
      required. We appreciate the courtesies extended during our review. If you have
      questions on this report, please contact Ms. Barbara Smolenyak, Program Director, at
      (703) 604-8761. The report distribution is in Enclosure 2.




                                   Robert J TLieberman
                                 Assistant Inspector General
                                        for Auditing
Enclosures
                                 The RAND Corporation
                      Schedule of Findings and Questioned Costs for
                         Fiscal Year Ended September 24, 1995


Coopers and Lybrand L.L.P.

Audit Report                                    Questioned            Resolution
 Page No.             Description                costs                Agency

    18         Noncompliance With Financial
                Reporting Requirements            NA”                 DOD




Defense Contract Audit Agency

Audit Report                                    Questioned            Resolution
 Page No.              Description               costs                Agency

   6-7         Outside Services (Legal Expenses) $ 70,583             DOD

   6-9         Miscellaneous: Interunit Expenses $254,871             DOD
                              Fellowships        $ 29,616             DOD



* Not Applicable




                                                                                   Enclosure I
                                 The RAND Corporation
                         Fiscal Year Ended September 24, 1995

                                    Distribution List

The Board of Directors
The RAND Corporation
1620 26th Street
Santa Monica, CA 90404

Coopers & Lybrand L.L.P.
350 South Grand Avenue
Los Angeles, CA 90071-3405

Commander
Defense Contract Management Command
8725 John J. Kingman Road, Suite 4539
Fort Belvoir, VA 22060-3060

Director, Defense Contract Audit Agency
8725 John J. Kingman Road, Suite 2135
Fort Belvoir, VA 22060-62 19




                                                                Enclosure 2
Evaluation Team Members

This report was prepared by the Financial and Performance Audits Directorate, Office
of the Assistant Inspector General for Auditing, DOD

Barbara E. Smolenyak
Donald D. Steele
Andrew Katsaros
Vera J. Garrant
Sunil R. Kadam
Nancy C. Cipolla
Janet Johnson
